Number
IN THE SUPREME COURT OF THE
UNITED STATES
OCTOBER TERM, 2019
SCOTT T. WILBERT,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

FELDMAN and FELDMAN
Attorneys at Law
1129 Northern Boulevard
Suite 404
Manhasset, NY 11030
(516) 441-0452

QUESTIONS PRESENTED
1. Should certiorari be granted because the Second Circuit Court
of Appeals improperly affirmed the denial of Petitioner’s Fourth
Amendment suppression motion?
2. Should certiorari be granted because the Second Circuit Court
of Appeals improperly affirmed the denial of Petitioner’s motion for a
Franks hearing?

i

TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF FACTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

6

POINT 1:
CERTIORARI SHOULD BE GRANTED BECAUSE THE
SECOND CIRCUIT COURT OF APPEALS
IMPROPERLY AFFIRMED THE DENIAL OF
PETITIONER’S FOURTH AMENDMENT
SUPPRESSION MOTION. . . . . . . . . . . . . . . . . . . . . . . . . . . 10
POINT II:
CERTIORARI SHOULD BE GRANTED BECAUSE THE
SECOND CIRCUIT COURT OF APPEALS
IMPROPERLY AFFIRMED THE DENIAL OF
PETITIONER’S MOTION FOR A FRANKS HEARING . . . 33
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
ii

CERTIFICATE OF SERVICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

iii

TABLE OF AUTHORITIES
FEDERAL CASES
Arizona v. Gant, 556 U.S. 332, 345, 129 S. Ct. 1710, 173 L. Ed. 2d
485 (2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Franks v. Delaware, 438 U.S. 154, 98 S. Ct. 2674, 57 L. Ed. 2d 667
(1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Payton v. New York, 445 U.S. 573, 583, 100 S. Ct. 1371, 63 L. Ed. 2d
639 (1980). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Awadallah, 349 F.3d 42 (2d Cir. 2003) . . . . . . . . . 34
United States v. Brooks, No. 12-cr-166, 2012 U.S. Dist. LEXIS
178453, 2012 WL 6562947, at *2 (E.D.N.Y. Dec. 17, 2012) . . . 13
United States v. DiTomasso, 56 F. Supp. 3d (S.D.N.Y. 2014), aff’d,
United States v. DiTomasso, 932 F.3d 58 (2d Cir. 2019)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13, 16, 17
United States v. Dost, 636 F. Supp. 828 (S.D. Cal. 1986) . . . . . 18, 20
United States v. Giordano, 416 U.S. 505, 555, 94 S. Ct. 1820, 40 L.
Ed. 2d 341 (1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. Leon, 468 U.S. 897, 104 S. Ct. 3405, 82 L. Ed. 2d
677 (1984). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28, 29, 32
United States v. Lifshitz, 369 F.3d 173 (2d Cir. 2004) . . . . . . . . . . . 11
United States v. Mandell, 752 F.3d 544 (2d Cir. 2014) . . . . . . . . . . 34
United States v. Paulino, 850 F.2d 93 (2 Cir. 1988), cert. denied, 490
U.S. 1052, 109 S. Ct. 1967, 104 L. Ed. 2d 435 (1989). . . . . . . . . 11
iv

United States v. Rivera, 546 F.3d 245 (2d Cir. 2008). . . . . . . . . . . . 18
United States v. Spoor, 904 F.3d 141 (2d Cir. 2018) . . . . . . . . . . . . 19
United States v. Wilbert, Number 16-CR-6084L, 2017 U.S. District
LEXIS 77141 (W.D.N.Y. May 22, 2017). . . . . . . . . . . . . . . . . . . . 2
United States v. Wilbert, 343 F. Supp. 3d (W.D.N.Y. 2018)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2, 3, 11, 14,
15, 17, 18, 20, 21,
26, 29, 31, 33
United States v. Wilbert, Number 16-CR-6084-DGL-JWF, 2017 U.S.
District LEXIS 77818 (W.D.N.Y. May 28, 2017) . . . . . . . . . . 1, 21
United States v. Wilbert, Number 16-CR-6084-DGL-JWF, 2018 U.S.
District LEXIS 187515 (W.D.N.Y. Aug. 20, 2018) . . . . . . . . . 1, 11
Whiteley v. Warden, 401 U.S. 560, 564, 91 S. Ct. 1031, 28 L. Ed. 2d
306 (1971). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
STATE CASES
People v. Wilbert, 35 A.D.3d 1220 (4th Dept. 2006). . . . . . . . . . . . . 23
FEDERAL STATUTES
18 U.S.C. § 2255. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
18 U.S.C. § 2256(2)(B)(ii) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
18 U.S.C. § 2256(8) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

v

No.
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2019
-------------------------------------------------------------SCOTT T. WILBERT,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
-------------------------------------------------------------------------------------------PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT
---------------------------------OPINIONS BELOW

1

There were five decisions below, four in the District of
Connecticut, and one in the Second Circuit Court of Appeals. Each is
attached to this petition. See United States v. Wilbert, No. 19-2173-cr,
2020 U.S. App. LEXIS 27578 (2d Cir. Aug. 28, 2020); United States v.
Wilbert, 343 F. Supp. 3d 117 (W.D.N.Y. 2018); United States v. Wilbert,
No. 16-CR-6084-DGL-JWF, 2017 U.S. Dist. LEXIS 77818 (W.D.N.Y.
Mar. 28, 2017); United States v. Wilbert, No. 16-CR-6084-DGL-JWF,
2018 U.S. Dist. LEXIS 187515 (W.D.N.Y. Aug. 20, 2018); United States
v. Wilbert, No. 16-CR-6084L, 2017 U.S. Dist. LEXIS 77141 (W.D.N.Y.
May 22, 2017).
JURISDICTION
The order of the Court of Appeals was decided on August 28,
2020, and this petition for a writ of certiorari is being filed within 90 days
thereof, making it timely.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourth Amendment to the United States constitution.

2

STATEMENT OF THE CASE
Petitioner, Scott T. Wilbert, was charged, in a one-count
Indictment, with violating Title 18, United States Code, Section
2252A(a)(2)(A), for knowingly receiving child pornography. After
reserving the right to challenge the suppression court’s ruling, he pleaded
guilty and was sentenced to 180 months’ imprisonment. The Second
Circuit Court of Appeals affirmed his conviction. United States v.
Wilbert, No. 19-2173-cr, 2020 U.S. App. LEXIS 27578 (2d Cir. Aug. 28,
2020).

3

STATEMENT OF FACTS
Prior to entering his plea, Petitioner moved to suppress physical
evidence seized from a computer located in his apartment that was
accessible to others, at 634 Garson Avenue, in Rochester, pursuant to a
search warrant signed by Monroe County Court Judge Victoria M.
Argento, on February 17, 2016.
The search warrant was based on an affidavit executed by New
York State Police Investigator David A. Cerretto, who swore, on
December 22, 2015, that he had received information from the National
Center for Missing and Exploited Children [“NCMEC”] that an image
containing child pornography had been uploaded to a computer using a
specific Internet Protocol (IP) address.
The upload took place during the early morning hours of October
22, 2015 on Omegle.com. Omegle is a free online chat website that
allows users to socialize with others without the need to register. It
randomly pairs users in one-on-one chat sessions. The IP address was
controlled by Frontier Communications. Frontier told Cerretto that, during
the date and time of the upload, the IP address was assigned to Scott T.
Wilbert, at 634 Garson Avenue, Rochester, New York 14609. According
4

to Frontier, that IP address also had an email address in the name of Scott
T. Wilbert and a local phone number assigned as well. Cerretto averred
in his supporting affidavit that a record check of Scott T. Wilbert revealed
that Wilbert was a registered Level Two sex offender and, eleven years
earlier, in 2004, had been investigated for uploading child pornography
files. Yet no charges were filed at the time.

Based on the information set

forth in Cerretto’s affidavit, Judge Argento found probable cause to
search 634 Garson Avenue. In his affidavit, Investigator Cerretto
described the premises as
being a green and white colored, multi-level residential
building. The building is identified by the numbers “634”
above a maroon colored entrance door. Mentioned entrance
door is on the north side of Garson Avenue, which is located
in the City of Rochester, County of Monroe, State of New
York. Leading to mentioned entrance door are fixed metal
hand rails on both sides of a concrete stairway. 634 Garson
Avenue is attached to the left of 636 Garson Avenue, which
is utilized commercially as a hair salon. This search is to
include the upstairs apartment of 634 Garson Avenue, the
subject of this investigation (SCOTT T. WILBERT
(08/21/1974)), and any out buildings, real property,
vehicle(s), and curtilage utilized by the subject at the
mentioned location. See attached photos of described
building.
On October 25, 2015, Omegle’s automated software flagged two
images from IP address 50.49.31.78, which was a computer in
5

Petitioner’s home. The first image, a jpeg file whose name ended in
“a9e7” (“image a9e7”), was uploaded at 2:30:21 UTC. The second
image, a jpeg file whose name ended in “c6d0” (“image c6d0”), was
uploaded at 2:26:12 UTC. The founder of Omegle was certain a third
party moderator viewed image c6d0 because it was flagged as unwanted
content, but he is not certain whether the moderator viewed image a9e7.
Because the two images came from the same chat session at around the
same time, both were grouped together and sent to NCMEC, even though
Omegle could only confirm that one was reviewed by a moderator and
flagged as containing apparent child pornography.
NCMEC received a tip report on October 25, 2015 at
approximately 2:38:58 UTC. A staff member viewed image c6d0, which
appeared to be a series of four screenshots of what they claimed was an
animal performing oral sex on a young girl.
David Cerretto, an investigator with the New York State Police,
testified that, once NCMEC makes a report available to New York State
Police Internet Crimes Against Children (“ICAC”), members of the police
department are able to retrieve it and review its contents.

6

Cerretto testified that he accessed both images, even though he was
aware that only image c6d0 had been viewed by Omegle and NCMEC.
He said it does not “matter” if they have been opened by Omegle or
NCMEC, because it is the “practice” of the NYSP to open “every
image”--even if neither the New York State Police nor ICAC have a
search warrant. He viewed the images seized from Petitioner’s computer
to “confirm [that] a crime ha[d] happened.” Cerretto saw that the first
image, in Exhibit 1, and claimed it depicted a canine performing oral sex
on a white, unclothed female child of about four to seven years of age,
while the second image, in Exhibit 11, was indiscernible.
He had no idea what was in the second image, and had no warrant,
but decided to open it anyway. He explained “[n]o one said anything
about a warrant, so I had no information on a warrant ....” He explained
that the NYSP routinely opens every image that is a closed container,
even if it has never been opened by a private party, without a search
warrant. They do not “distinguish” between images that do and do not
depict child pornography, preferring instead to “confirm that there’s no
child pornography on it” because that “will [then] direct [their]
investigation.”
7

In his search warrant affidavit, Cerretto told the Magistrate the
canine depicted with the girl occurred at 2:30--and not at 2:36-- when it
actually happened, because, he rationalized, it was an “ongoing incident,”
adding “[t]hat’s [just] the way I do it.” When the Magistrate Judge asked
Cerretto why, when the “one that was not a crime was uploaded at
2:30:21” he told the warrant-issuing judge that “the image that was the
crime was uploaded at 2:30:21,” he admitted he made “a mistake,” but
insisted it was “all one ongoing incident.”

8

SUMMARY OF ARGUMENT
Certiorari should be granted because the Second Circuit Court of
Appeals erred when it upheld the District Court’s suppression ruling. The
New York State Police initially expanded the third-party private search
of Wilbert’s video chat, and then rummaged until it found incriminating
evidence--all without a search warrant.
Notwithstanding the false claim by the police to the warrantissuing magistrate, the claimed child pornography did not depict oral sex
and was not child pornography.
The affidavit in support of the search warrant, and the search,
which occurred some four months later, was also both overbroad and
stale.
Certiorari should also be granted because the Second Circuit Court
of Appeals again erred when it upheld the District Court’s denial of
Wilbert’s motion for a Franks hearing. There were, in fact, intentional
and material misrepresentations in the search warrant affidavit that were
necessary to the probable cause finding and, therefore, the hearing should
have been ordered.

9

ARGUMENT
POINT I
CERTIORARI SHOULD BE GRANTED BECAUSE THE
SECOND CIRCUIT COURT OF APPEALS
IMPROPERLY AFFIRMED THE DENIAL OF
PETITIONER’S FOURTH AMENDMENT
SUPPRESSION MOTION.
Certiorari should be granted because the Second Circuit Court of
Appeals erred for four reasons when it affirmed the District Court’s denial
of Wilbert’s suppression motion.
First, Wilbert’s use of Omegle did not deprive him of a reasonable
expectation of privacy in the images at issue. Second, the illicit image
“c6d0” that provided a basis for the warrant did not constitute child
pornography, so the warrant lacked probable cause. Third, the warrant
authorizing the search of his residence was overbroad and stale. And
fourth, the affirmance for the reasons in the district court’s opinions are
in error, because they violate the Fourth Amendment.
1. Wilbert’s use of Omegle did not deprive him of a reasonable
expectation of privacy in the images at issue.
Whether Wilbert had an expectation of privacy turns on two
separate inquiries: first, he must demonstrate a subjective expectation of

10

privacy in a searched place or item, and second, his expectation must be
one that society accepts as reasonable. United States v. Paulino, 850 F.2d
93, 97 (2 Cir. 1988), cert. denied, 490 U.S. 1052, 109 S. Ct. 1967, 104
L. Ed. 2d 435 (1989). Here, both questions are answered in the
affirmative because the computer was in Wilbert’s apartment. See United
States v. Lifshitz, 369 F.3d 173, 190 (2d Cir. 2004)(“Individuals generally
possess a reasonable expectation of privacy in their home computers.”).
While the government claimed below that Wilbert was not entitled to an
expectation of privacy because he had never admitted he had a privacy
expectation in the child pornography, he later admitted, in a sworn
affidavit, that the images were found on his computer, to which others in
the residence had access. Significantly, even the Magistrate was rightly
“ ... skeptical of the government’s position that Wilbert may not challenge
the search of his computer without first admitting he was using Omegle
at the time the offending images were found ....” United States v. Wilbert,
No. 16-CR-6084-DGL-JWF, 2018 U.S. Dist. LEXIS 187515, at *17
(W.D.N.Y. Aug. 20, 2018).
The Terms of Service on Omegle’s website do you change the
expectation of privacy calculus. Omegle’s video chat component is a
11

peer-to-peer system, where the video stream is sent directly from one user
to the other, rather than through Omegle’s servers. This does not result in
a diminished expectation of privacy, because it is a lodestar of Fourth
Amendment jurisprudence that disclosing information to someone else
does not automatically permit intrusion by law enforcement. See United
States v. DiTomasso, 56 F. Supp. 3d 584, 591-92 (S.D.N.Y. 2014), aff’d,
United States v. DiTomasso, 932 F.3d 58 (2d Cir. 2019)(“On the
government’s logic, if DiTomasso were to disclose private information to
a friend over the phone--which, by the nature of the act, would cause
DiTomasso to ‘assume[] the risk’ that his friend might relay the
information to law enforcement--he would have no expectation of privacy
in the phone call, and no Fourth Amendment protection would apply. This
reasoning was rejected by the Supreme Court in Katz v. United States,
when it held that disclosing information to someone else does not
automatically permit intrusion (in particular, wiretapping) by law
enforcement.

To this day, Katz remains a ‘lodestar’ of Fourth

Amendment law.”).
The very characteristic of the peer-to-peer network like Omegle,
where users can talk and share directly between systems on the network,
12

without the need of a central server, engender an expectation of privacy
because they involve one-on-one interactions that citizens clearly expect
to be kept private. This type of computer contact is no different than an
e-mail or telephone call, because both parties are excluding everyone but
themselves and thus have an expectation it will remain private. See
DiTomasso, 56 F. Supp. 3d at 592 (“ ... the whole point of Omegle’s
service is to allow two strangers to chat anonymously, and only with one
another. For Fourth Amendment purposes, there is no distinction between
an Omegle chat and an email correspondence--or for that matter, between
an Omegle chat and a phone call. Both involve one-on-one interactions
that users clearly expect to be kept private.”).
Even if it can be argued there is a diminished expectation of
privacy for information an individual chooses to “share” on a peer-to-peer
network, see, e.g., United States v. Brooks, No. 12-cr-166, 2012 U.S.
Dist. LEXIS 178453, 2012 WL 6562947, at *2 (E.D.N.Y. Dec. 17,
2012), that does not strip Wilbert of all expectations of privacy. The
Magistrate correctly noted this was a “developing” and “very, very
difficult area for courts” because every application has a TOS that would
“eviscerate [one’s] privacy interests.” He thus did not believe “courts are
13

going that far” to say that “law enforcement can have [all TOS]
information] without any search warrant, without any reason
whatsoever[.]” He believed said that, even when a website warns an
anonymous participant he “could be monitored,” that required “analysis”
and was certainly not a “slam dunk.” He was correct.
Judge Larimer, however, disagreed with Magistrate Feldman. He
found that, “ ... on the facts here, as to the two video screenshots,
defendant failed to demonstrate that he had a legitimate expectation of
privacy. The items at issue were shared with an anonymous third-party
according to the Omegle program [sic], and Wilbert, in my view, had no
reasonable privacy expectation that that person might not share the
images with another or with law enforcement.” United States v. Wilbert,
343 F. Supp. 3d 117, 121 (W.D.N.Y. 2018).
Judge Larimer’s finding, which was adopted by the Second Circuit
Court of Appeals, is incorrect because it misapprehends the purpose of
the Omegle platform. Here, Wilbert clearly had an expectation of privacy
when he used the Omegle website. Indeed, the raison d’être of Omegle’s
service is to allow two strangers to chat anonymously--and only with one
another--to the exclusion of the entire world. This sense of willful
14

anonymity and privacy, where users can develop online companionship
with strangers, is fostered by a direct computer-to-computer contact, that
is solely between two users, and does not pass through Omegle’s servers.
For Fourth Amendment purposes, there is no distinction between
what Wilbert did on Omegle and what he could have done either in e-mail
or on the telephone. At its core, both involve one-on-one interactions that
are clearly expected to be kept private.
Judge Larimer also found that Wilbert failed to demonstrate a
reasonable expectation of privacy because “ ... the Omegle website had
a clear warning that the ‘chats’ are subject to monitoring for offensive
content as part of Omegle’s moderation process.” United States v.
Wilbert, 343 F. Supp. 3d 117, 121 (W.D.N.Y. 2018). Again, he is
incorrect. Omegle’s Terms of Service did not diminish Wilbert’s
expectation of privacy because. If such acquiescence were enough to
waive his expectation of privacy, that would result in the chilling of social
interaction and the evisceration of the Fourth Amendment.
The government argued below that, because the Omegle website
advised that video chats are subject to monitoring for offensive content,
the warning, standing alone, eliminated Wilbert’s expectation of privacy
15

in the content of his chats and constituted a binding consent by Wilbert to
allow Omegle to search and reveal the content of his video
communications. It is incorrect. In fact, the Court in United States v.
DiTomasso, 56 F. Supp. 3d 584 (S.D.N.Y. 2014), expressly rejected the
government’s privacy argument on the ground that
it would subvert the purpose of the Fourth Amendment to
understand its privacy guarantee as ‘waivable’ in the sense
urged by the government. In today’s world, meaningful
participation in social and professional life requires using
electronic devices--and the use of electronic devices almost
always requires acquiescence to some manner of
consent-to-search terms. If this acquiescence were enough
to waive one’s expectation of privacy, the result would
either be (1) the chilling of social interaction or (2) the
evisceration of the Fourth Amendment. Neither result is
acceptable.
The DiTomasso Court also correctly found that the language in
Omegle’s Terms of Service was not so clear that it destroyed the
defendant’s expectation of privacy. It held:
Omegle took snapshots of DiTomasso’s chats and parsed
them for content. Although that form of monitoring is
referenced in the policy, it is mentioned exclusively as a
means of “monitoring for misbehavior”—by which the
policy clearly means violations of Omegle’s rules, not
criminal activity—and of improving Omegle’s internal
monitoring system. A reasonable person, having read
carefully through the policy, would certainly understand that
by using Omegle’s chat service, he was running the risk that
16

another party—including Omegle—might divulge his
[s]ensitive information to law enforcement. But this does not
mean that a reasonable person would also think that he was
consenting to let Omegle freely monitor his chats if Omegle
was working as an agent of law enforcement. When
Omegle’s policy refers to the ‘law enforcement [purpose]’
behind maintaining IP address records, it is unclear whether
this ‘purpose’ is motivated (1) by Omegle’s independent
desire to aid criminal investigations, or (2) by Omegle’s
obligations under state or federal law. In other words, it is
plausible to interpret the policy as implying that OMegle
[sic] is required to keep IP address records. So construing
the policy, a reasonable user would be unlikely to conclude
that Omegle intended to act as an agent of law enforcement.
And such a user would be even less likely to conclude that
he had agreed to permit such conduct. DiTomasso, 56 F.
Supp. 3d at 596-97.
The District Court, which conclusorily found Wilbert had no
reasonable expectation of privacy because “ ... the Omegle website had
a clear warning that the ‘chats’ are subject to monitoring, Wilbert, 343 F.
Supp. 3d at 121, never cited, let alone distinguished the compelling
reasoning in DiTomasso.
2. The illicit image (“Image c6d0”) that provided the basis for the warrant
did not constitute child pornography, so the warrant lacked probable
cause.
Investigator Cerretto swore in his affidavit that he sought a search
warrant because he observed child pornography. Under the factors in
United States v. Dost, 636 F. Supp. 828, 829-30 (S.D. Cal. 1986), which
17

has been approved by the Second Circuit, see United States v. Rivera,
546 F.3d 245, 252-53 (2d Cir. 2008), the image in question was not,
however, child pornography. While the Second Circuit Court of Appeals
ruled that “[t]he government’s warrantless review of Image a9e7 does not
mandate suppression ... because Image c6d0 was sufficient on its own to
establish probable cause,” Wilbert, 2020 U.S. App. LEXIS 27578, at *3,
it is incorrect.
In Dost, the Court said that “[t]he critical issue in this case is
whether the pictures depict the minors engaging in sexually explicit
conduct as defined in 18 U.S.C. § 2255: For the purposes of this chapter,
the term – . . . . (2) ‘sexually explicit conduct’ means actual or simulated
– (A) sexual intercourse, including genital-genital, oral-genital,
anal-genital, or oral-anal, whether between persons of the same or
opposite sex; (B) bestiality; (C) masturbation; (D) sadistic or masochistic;
abuse [sic]; or (E) lascivious exhibition of the genitals or pubic area of
any person.” In Dost, the 21 of the 22 photographs depicted a
14-years-old girl in “various supine and sitting poses,” while one
photograph depicted a 10-year-old girl “nude and sitting on the beach.”
On these facts, the Court ruled that “[t]he photographs at issue here do
18

not meet the definitions contained in subsections (A), (B), (C), or (D).
These photographs depict ‘sexually explicit conduct’ only if they contain
a ‘lascivious exhibition of the genitals or pubic area’ under subsection
(E).”
Here, too, the photograph of the K-9 and the girl do not depict
sexually explicit conduct because there is no actual or simulated sexual
intercourse, including genital-genital, oral-genital, anal-genital, or
oral-anal, whether between persons of the same or opposite sex;
bestiality; masturbation; sadistic or masochistic abuse.
That leaves only one possibility: the lascivious exhibition of the
genitals or pubic area. While there is no statutory definition for a
“lascivious exhibition,” United States v. Spoor, 904 F.3d 141, 148 (2d
Cir. 2018)(“The statute does not define a ‘lascivious exhibition’”), here,
the focal point of the picture was not the child’s genitals or pubic area.
Indeed, the young girl’s genital and pubic area is not even displayed in the
picture.
The setting of the picture was not sexually suggestive either. The
picture was not taken in a place or pose generally associated with sexual
activity. For example, the picture was not taken on a bed in a bedroom.
19

The picture also did not suggest sexual coyness or willingness to engage
in sexual activity, through expression of demeanor. And, finally, the
picture of the K-9 and the girl were not intended or designed to elicit a
sexual response from the viewer.
In his affidavit, Investigator Cerretto averred the picture was child
pornography to obtain a search warrant to seize the computer in
Petitioner’s home, which yielded the evidence upon which the
government rested its case. Yet he never showed the Magistrate the
picture, and his subjective impression is not determinative. Under the
factors in Dost, the image in question was not, objectively, child
pornography.
3. The information contained in the affidavit in support of the search
warrant was, in any event, also overbroad and stale.
The Second Circuit Court of Appeals also held that “ ... the warrant
was not stale or overbroad.” Wilbert, 2020 U.S. App. LEXIS 27578, at
*4-5. It found the “ ... warrant was sufficiently particular to identify
Wilbert’s upstairs apartment as the premises to be searched, and it
therefore was not overbroad.” It is incorrect. The warrant did not describe
the place to be searched. The affidavit described 634 Garson Avenue as

20

a “multi-level residential building.” Id. In fact, it is not. Rather, it is a
multiple unit residence, in which Wilbert–the target of the investigation-occupies only one unit, the upstairs apartment. In other words, although
the affidavit linked the defendant to 634 Garson Avenue, it did not specify
the specific portion of the building he occupied. Cerretto’s use of the
word “multi-level” was intended to obfuscate rather than illuminate its
true occupancy, to allow him to search the entire building rather than only
one apartment. This rendered the search warrant overbroad and lacking
in probable cause to believe that contraband or evidence of a crime would
be found in the place searched.
Significantly, even Magistrate Judge Feldman found “[i]t is true
that paragraph A(1) of the warrant stated that ‘[t]his search is to include
the upstairs apartment of 634 Garson Avenue,’ but that language is
imprecise.” United States v. Wilbert, No. 16-CR-6084-DGL-JWF, 2017
U.S. Dist. LEXIS 77818, at *7 n.2 (W.D.N.Y. Mar. 28, 2017).
Here, the issue is not simply that the affidavit in support of the
search warrant is technically imprecise or poorly drafted, but, rather, that
it does not state sufficient facts to support an independent determination
by the issuing magistrate that probable cause existed to enter and search
21

Wilbert’s home. See, e.g., Whiteley v. Warden, 401 U.S. 560, 564, 91 S.
Ct. 1031, 28 L. Ed. 2d 306 (1971). Accordingly, the search warrant was
facially invalid.
The District Court is again incorrect. Despite Judge Argento’s
description of the dwelling to be searched, she wrote “[t]his search is to
include the upstairs apartment of 634 Garson Avenue ... and any out
buildings, real property, vehicle(s), and curtilage utilized by the subject
....” (emphasis added). Read in its entirety, this language does not limit
the scope of the search to anything less than all of 634 Garson Avenue.
The Magistrate did not say the police could only search Wilbert’s
apartment; on the contrary, she said the search should include Wilbert’s
apartment. Yet by implication, that did not mean the police could not
search anything else at 634 Garson Avenue. Technically, it meant the
police could search all of 634 Garson Avenue–including Wilbert’s
apartment. As such, the search warrant was overbroad, because it gave
law enforcement too much discretion and not enough meaningful
restrictions on the search.
Even if the warrant were not overbroad, it was still stale. The
Second Circuit Court of Appeals disagreed, but it is incorrect. It held that,
22

“[i]n light of the indicia identified in the Cerretto Affidavit suggesting that
Wilbert was a collector of child pornography--including a prior sex
offense and a previous investigation for uploading child pornography--we
conclude that the four-month period between when the images were
uploaded and the warrant was issued did not render the warrant stale.”
Wilbert, 2020 U.S. App. LEXIS 27578, at *5-6.
As a preliminary matter, the District Court’s rejected Wilbert’s
staleness claim based on a misapprehension of critical facts. It mistakenly
believed the interval between the offense and the warrant was “several
weeks” when, in fact, it was nearly four months. The Second Circuit
ignores that error, and simply found that even the four-month delay did
not render the warrant stale. Contrary to its finding, however, Wilbert’s
background does not impact the staleness of the warrant. Wilbert’s 26year-old conviction, in 1991, occurred when he was only 16-years-old. In
finding that Wilbert was a level two rather than a level three risk, pursuant
to the Sex Offender Registration Act, the Supreme Court, Appellate
Division, Fourth Department, found, in People v. Wilbert, 35 A.D.3d
1220, 1220 (4th Dept. 2006), that “[t]he evidence presented at the
redetermination hearing established that defendant’s behavior[,] while on
23

probation and thereafter[,] was exemplary ....” Such exemplary behavior,
from a man convicted over two decades ago, as a teenager, cannot
reasonably provide sufficient evidence to overcome the staleness of the
evidence relied upon for this search warrant.
No other evidence overcame the staleness either. Cerretto never
alleged Wilbert had been diagnosed with Pedophilia, had a large stash of
child pornography or had a paid subscription to a child pornography site.
Nor did he allege Wilbert had to take complicated steps to download the
suspected images; indeed, he claimed Wilbert accessed Omegle.com with
a simple click of the mouse. The image Wilbert allegedly had did not
depend on a series of sufficiently complicated steps that reflected a willful
intention to view the files. Cerretto never claimed Wilbert first accessed
a single file of child pornography, but subsequently redistributed it to
other users. Nor did he allege Wilbert had joined an internet group
devoted to child pornography.
Absent any indicia Wilbert hoarded child pornography, the single
alleged incident does not create a fair probability child pornography
would, some four months later, still be found on a computer in his home.

24

This, therefore, cannot defeat a staleness challenge. Accordingly, the
warrant issued in this case was not supported by probable cause.
4. The Second Circuit Court of Appeals erred when it Affirmed for the
Same Reasons as the District Court.
The Second Circuit Court of Appeals ruled that, “[f]or substantially
the reasons set out in the district court’s opinions, we conclude that
Wilbert’s arguments on appeal are without merit.” Wilbert, 2020 U.S.
App. LEXIS 27578, at *3. It is incorrect. Certiorari should be granted to
address these vital Fourth Amendment issues.
Investigator Cerretto testified, for example, that it is the practice of
the New York State Police to rummage through everything that NCMEC
sends them--without a warrant--until they find incriminating evidence. Yet
the rummaging search violates the very essence of the Fourth Amendment
to the United States constitution. It is akin for the police to enter a house
and open all the drawers without a warrant and finally find evidence of
criminality to ultimately justify the issuance of a warrant from a
Magistrate.
When Magistrate Feldman claimed one of the images “ ... was
never utilized [and] never formed the basis for any Fourth Amendment

25

violation,” defense counsel explained that it was “part of an[] illegal
search [where] you ultimately get to evidence to support the charge ....”
In other words, the New York State Police searched, without a warrant,
until they found incriminating evidence to support its affidavit to obtain
a warrant to search the computer in Wilbert’s apartment. Magistrate
Feldman accepted the premise of this argument, noting he was troubled
by the “cavalier” attitude of the New York State Police, which “ ... says,
[‘]hey, we don’t care [how careful NCMEC was], we’re going to open
everything’ ... which * * * had never been viewed by anyone before
without the benefit of a search warrant’”
In a finding that was upheld by the Second Circuit, Judge Larimer
ruled that “ ... the untainted evidence — c6d0 — was certainly sufficient
to establish probable cause that child pornography was displayed on the
chat video, putting aside any alleged tainted evidence * * * Such evidence
provided ample basis for issuance of the warrant which led to the
discovery of the child pornography images which formed the basis of the
present indictment.” United States v. Wilbert, 343 F. Supp. 3d 117, 121
(W.D.N.Y. 2018). Yet this ruling fails to address the Magistrate’s
concerns and the defendant’s argument. It should have, because it was
26

precisely the cavalier attitude of the New York State Police, in
rummaging through everything sent to it, to try to find incriminating
evidence, upon which to seek a search warrant, that ran afoul of the
Fourth Amendment. This is, after all, the chief evil that prompted the
framing and adoption of the Fourth Amendment, to wit, the
“indiscriminate searches and seizures” conducted by the British “under
the authority of ‘general warrants.’” Payton v. New York, 445 U.S. 573,
583, 100 S. Ct. 1371, 63 L. Ed. 2d 639 (1980); Arizona v. Gant, 556 U.S.
332, 345, 129 S. Ct. 1710, 173 L. Ed. 2d 485 (2009)(“[T]he central
concern underlying the Fourth Amendment [is] the concern about giving
police officers unbridled discretion to rummage at will among a person’s
private effects.”).
When all the tainted allegations are set aside, there was no
independent and lawful information in the search warrant affidavit that
sufficed to show probable cause. United States v. Giordano, 416 U.S.
505, 555, 94 S. Ct. 1820, 40 L. Ed. 2d 341 (1974)(“The ultimate inquiry
on a motion to suppress evidence seized pursuant to a warrant is not
whether the underlying affidavit contained allegations based on illegally
obtained evidence, but whether, putting aside all tainted allegations, the
27

independent and lawful information stated in the affidavit suffices to show
probable cause.”).
When the Magistrate said the warrant had both “legal and illegally
obtained evidence,” defense counsel correctly argued the search warrant
affidavit itself was false, because in order to obtain the warrant, the
Investigator “referred to [the one] at 2:30[,] [which] is not the one that
was viewed ....” He added that there “isn’t anything about 2:36 in the
affidavit” and there was nothing in the affidavit about “two images.” On
the contrary, he added, “[a] review on the four corners of the affidavit is
one image at 2:30:21” Even the Magistrate said that the “ ... image
downloaded at 2:30 ... did not contain evidence of child pornography ....”
There was, therefore, no probable cause to issue the warrant.
Finally, Judge Larimer “ ... conclude[d] that the good faith
exception rule[,] enunciated in United States v. Leon, 468 U.S. 897, 104
S. Ct. 3405, 82 L. Ed. 2d 677 (1984)[,] applies. Investigator Cerretto
provided a state court judge with the image involved depicting child
pornography. The officer, therefore, was entitled to reasonably rely on the
decision of the state court judge to issue the warrant.” United States v.

28

Wilbert, 343 F. Supp. 3d 117, 122 (W.D.N.Y. 2018). Judge Larimer and
the Second Circuit are both incorrect.
In Leon, this Court held that the Fourth Amendment exclusionary
rule should not be applied to evidence obtained by a police officer whose
reliance on a search warrant issued by a neutral magistrate was based on
“objective good faith,” even though the warrant might ultimately be found
defective. Leon, 468 U.S. at 918-23. Evidence seized pursuant to a
warrant for which actual probable cause does not exist or which is
technically deficient is admissible if the executing officers relied on the
warrant in “objective good faith.” Leon, 468 U.S. at 922 (test of objective
good faith is “whether a reasonably well trained officer would have
known that the search was illegal despite the magistrate’s
authorization.”). The rationale for the good faith exception is that the
exclusionary rule “cannot be expected, and should not be applied, to deter
objectively reasonable law enforcement activity.” Id. at 919. Here, the
good faith exception does not apply because the warrant issuing
magistrate was knowingly misled for two reasons.
First, the search warrant affidavit was false, because the image
referred to was at 2:30, yet that image did not contain child pornography.
29

Critically, there was nothing in the affidavit about the image at 2:36. Nor
was there any mention of two images. Significantly, even the Magistrate
noted the “ ... image downloaded at 2:30 ... did not contain evidence of
child pornography ....” Absent the correct image, the application was also
so lacking in indicia of probable cause as to render reliance upon it
unreasonable. The warrant also so facially deficient that reliance upon it
was unreasonable.
Second, the good faith exception is also inapplicable because
Investigator Cerretto knowingly misled the issuing magistrate in his
search warrant affidavit. He claimed he viewed an image of a
“prepubescent female engaged in oral sex with a K-9.” That is false.
There is no depiction of oral sex in the picture. Nor is there any indication
of actual physical contact between the tongue of the dog and the vagina
of the girl. Indeed, the photograph does not even show the vagina or pubic
area of the girl, let alone whether it was covered or uncovered. On the
contrary, the most Investigator Cerretto admitted he could see was the
face of a dog “in the area of a child’s vagina.” Yet that, contrary to the
Second Circuit’s finding that this “ ... arguably constitutes child
pornography for purposes of 18 U.S.C. § 2256(8) because it depicts
30

‘graphic or ... simulated bestiality,’ 18 U.S.C. § 2256(2)(B)(ii),” Wilbert,
2020 U.S. App. LEXIS 27578, at *4 (emphasis added), does not, in fact,
constitute actual or simulated oral sex. As a result, his claim, in the search
warrant application, that the CyberTipline contained a complaint of a K-9
engaging in oral sex with a prepubescent female is false, which knowingly
misled the issuing magistrate.
Investigator Cerretto also claimed the photograph of the K-9 and
the girl violated several sections of the New York Penal Law, including
section 263.15, promoting a sexual performance by a child, section
263.16, possessing a sexual performance by a child, and “sexual
bestiality” and section 263.00(3),which defines “oral sexual conduct.”
The photograph does not, however, depict any of the above, but, rather,
only depicts a dog in the general vicinity of a girl’s body, and does not
even show her vagina or private parts.
Significantly, New York State Penal Law § 130.00(2), defines
“oral sexual conduct” as conduct between persons consisting of contact
between the mouth and the penis, the mouth and the anus, or the mouth
and the vulva or vagina.” The photograph, however, shows no such

31

contact. Nor does the picture depict simulated sexual conduct. On the
contrary, the image depicted a dog and a girl.
In his affidavit, Cerretto misled the warrant issuing magistrate--who
was never provided with the image in question--as both a legal and factual
matter, by falsely claiming the photograph depicted oral sex, when, in
fact, it did not. Accordingly, the Leon good faith exception does not
apply.
Taken together, certiorari should be granted to address the Fourth
Amendment rummaging violation by the New York State Police.

32

POINT II
CERTIORARI SHOULD BE GRANTED BECAUSE THE
SECOND CIRCUIT COURT OF APPEALS
IMPROPERLY AFFIRMED THE DENIAL OF
PETITIONER’S MOTION FOR A FRANKS HEARING.
Certiorari should be also granted because the Second Circuit
improperly affirmed the District Court’s denial of Wilbert’s Frank
hearing.
The Second Circuit Court of Appeals ruled no Franks hearing was
warranted, under Franks v. Delaware, 438 U.S. 154, 98 S. Ct. 2674, 57
L. Ed. 2d 667 (1978), because that “[t]here is, ... extensive evidence in
the record that the description of the image in the Cerretto Affidavit was
substantially accurate or, at the very least, not recklessly false. And minor
discrepancies such as a time stamp that is six minutes off fall far short of
the substantial preliminary showing of deliberate or reckless falsity that
a defendant must make before the Fourth Amendment requires a Franks
hearing.” Wilbert, 2020 U.S. App. LEXIS 27578, at *6-7. It is incorrect.
“To invoke the Franks rule, a defendant is required to show: (1)
‘that there were intentional and material misrepresentations or
omission[s]’ in the warrant affidavit, and (2) that the ‘alleged falsehoods

33

or omission were necessary to the ... probable cause finding.’” United
States v. Mandell, 752 F.3d 544, 552 (2d Cir. 2014)(quoting United
States v. Awadallah, 349 F.3d 42, 65 (2d Cir. 2003)). Here, Wilbert made
a substantial preliminary showing because there were intentional and
material misrepresentations in the warrant affidavit, and those falsehoods
were necessary to the finding of probable cause.
Investigator Cerretto obtained the warrant by intentionally and
materially misrepresenting two critical issues. First, the affidavit referred
to an image at 2:30, but that did not contain child pornography.
Magistrate Feldman acknowledged as much, even noting the “ ... image
downloaded at 2:30 ... did not contain evidence of child pornography ....”
Second, Cerretto knowingly and intentionally misrepresented the
claimed image of child pornography. He swore he viewed an image of a
“prepubescent female engaged in oral sex with a K-9.” That is false.
There is, in fact, no depiction of either oral sex or simulated sex in the
picture. Critically, at the hearing, Investigator Cerretto was only able to
testify that the face of a dog was “in the area of a child’s vagina.” That
however, is not oral sex and is not a crime. His averments in the affidavit
do not establish his claim that a K-9 was engaged in oral sex with a
34

prepubescent

female.

Given

the

knowing

and

intentional

misrepresentations in the affidavit, a Franks hearing should have been
ordered. Certiorari should be granted to address this issue.

35

CONCLUSION
THE WRIT OF CERTIORARI SHOULD BE
GRANTED.

Dated: September 11, 2020
Manhasset, New York
Respectfully Submitted,

Arza Feldman
Arza Feldman

36

UNITED STATES
SUPREME COURT

SCOTT T. WILBERT,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

I affirm, under penalties of perjury, that on September 11, 2020,
we served a copy of this petition for writ of certiorari, by first class
United States mail, on the United States Attorney, Western District of
New York, 100 State Street, Rochester, New York 14614, on the
Solicitor General, 950 Pennsylvania Avenue, NW Washington, DC
20530-0001, and on Scott T. Wilbert, 27018-055, FCI Allenwood Low,
Rt. 15, Allenwood, PA 17810. Contemporaneous with this filing, we have
also transmitted a digital copy to the United States Supreme Court and are
filing one copy of the petition, instead of 10, with this Court, pursuant to
its April 15, 2020 order regarding the Covid-19 pandemic.
Arza Feldman
Arza Feldman

37

